TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Indian Tribal Noncompliance With
                              the Bank Secrecy Act Is
                       Effectively Identified and Addressed,
                          but Improvements Can Be Made



                                         August 29, 2008

                              Reference Number: 2008-10-140




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 2(e) = Law Enforcement Procedure(s)

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                August 29, 2008


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Indian Tribal Noncompliance With the Bank
                               Secrecy Act Is Effectively Identified and Addressed, but Improvements
                               Can Be Made (Audit # 200810027)

 This report presents the results of our review of the Internal Revenue Service’s (IRS)
 effectiveness in identifying and addressing Indian tribal governments’ noncompliance with the
 Bank Secrecy Act (BSA).1 Our overall objective was to determine whether the IRS effectively
 identified and addressed Indian tribal entities that are potentially not compliant with the BSA.
 This review was conducted as part of the Treasury Inspector General for Tax Administration
 Office of Audit Fiscal Year 2008 Annual Audit Plan related to the Major Management Challenge
 of tax compliance initiatives.

 Impact on the Taxpayer
 The BSA requires certain businesses to submit reports of large-dollar cash transactions for use by
 law enforcement agencies in identifying terrorist funding, money laundering, and other illegal
 activity. The IRS is effective at identifying and addressing BSA noncompliance in the
 $25 billion per year Indian tribal gaming industry. However, improvements could further assure
 that tribal noncompliance can be addressed through enforcement action to deter future criminal
 activities and identify Indian tribes with the highest risk of noncompliance.


 1
  Pub. L. No. 91-508, 84 Stat. 1114 to 1124 (1970) (codified as amended in scattered sections of 12 U.S.C.,
 15 U.S.C., and 31 U.S.C.). Regulations for the Bank Secrecy Act, and other related statutes, are
 31 C.F.R. Sections 103.11-103.77 (2007).
                       Indian Tribal Noncompliance With the Bank Secrecy Act Is
                                  Effectively Identified and Addressed,
                                     but Improvements Can Be Made



Synopsis
The Indian Tribal Governments (ITG) office and the Small Business/Self-Employed Division
Fraud/BSA function have been effective in identifying and addressing Indian tribal entities that
are not compliant with the BSA. The IRS has identified 286 tribal entities–out of a population of
more than 2,500–that are required to comply with the BSA and has focused its efforts on those
with the highest risk of noncompliance. When indications of noncompliance are identified, the
IRS takes action to correct these deficiencies by providing increased educational contacts to help
tribes understand BSA requirements, pursuing unfiled information reports during educational
contacts and examinations, and referring cases with willful noncompliance to the IRS Criminal
Investigation Division to develop for prosecution. If the Criminal Investigation Division does
not accept a case for further development, the IRS Fraud/BSA function can forward the case to
the Financial Crimes Enforcement Network2 for potential penalty assessment when appropriate.3
Examinations of all 286 tribal entities required to comply with the BSA have not been
performed. However, the IRS had identified noncompliance in 34 (97 percent) of the
35 examinations closed from September 30, 2005, through November 9, 2007, that we
reviewed.4
Improvements could further assure that tribal noncompliance can be detected and acted upon.
For example, the ITG office and Fraud/BSA function could not account for all Notifications of
Possible IRS Check to Verify Maintenance of Required Records and Filing Reports (Letter
1052), which are used to advise tribal entities of their BSA compliance responsibilities. Without
documented evidence that tribes were notified of their responsibilities, the IRS cannot take
enforcement actions such as penalty assessments against tribes that have not complied with the
BSA.
During the audit, we presented the results of our tests for the accounting of Letters 1052 to
IRS management, who recognized the need to better account for the Letters. In a revised
Memorandum of Understanding dated March 6, 2008, the ITG office accepted responsibility for
accounting for Letters 1052 after they have been issued to tribal entities. In addition, an
ITG office official informed us that the Letters would be kept in a central location so that they
could be easily located.



2
  The Financial Crimes Enforcement Network is an organization within the Department of the Treasury that has
overall authority for enforcement of the BSA.
3
  When considering penalty assessment, the Financial Crimes Enforcement Network considers factors such as
whether violations resulted from negligent or willful action, what the violations were and the number that occurred,
or the length of time the violations persisted.
4
  The data extract provided to us by the Fraud/BSA function showed 46 records of examination cases were closed
during the period. Four cases could not be located, and we did not review seven additional cases because they had
been surveyed and not examined.
                                                                                                                       2
                   Indian Tribal Noncompliance With the Bank Secrecy Act Is
                              Effectively Identified and Addressed,
                                 but Improvements Can Be Made


The Fraud/BSA function primarily selects entities for examination from a list provided by the
ITG office that is prioritized based on a risk analysis. However, feedback to ITG office
management on the effectiveness of the risk analysis is infrequently provided and only addresses
individual cases. Further feedback was limited because the database used to record the
population of tribal entities required to comply with the BSA and data on BSA examinations
contained incomplete and inaccurate information. In addition, there is no structured feedback
process requiring the Fraud/BSA function to advise the ITG office as to why entities were
selected for examination or to provide the actual results of the examinations. Sharing this
information could help the ITG office improve the risk assessment process to focus on issues
with greater impact.
During the audit, we presented our conclusion that there was no structured feedback process
requiring the Fraud/BSA function to provide the ITG office the results of examinations. In a
revised Memorandum of Understanding dated March 6, 2008, the Fraud/BSA function agreed to
provide the results of examinations to the ITG office.

Recommendations
We recommended that the Director, Fraud/BSA, ensure that the Fraud/BSA function database is
complete and accurate by performing periodic reconciliations with the ITG office database and
by completing all applicable fields in the Fraud/BSA function database when data are available.
We also recommended that the Director, Fraud/BSA, provide feedback to the ITG office about
why Indian tribal entities were selected for examination and instances when a case is closed
without an examination.

Response
IRS management agreed with our recommendations and provided planned actions to address
them. These actions include 1) reconciling the Fraud/BSA function database with the ITG office
database and ensuring that all applicable fields in the Fraud/BSA function database are
completed when information is available, and 2) providing information to the ITG office as to
why entities are selected for examination or instances when referrals are closed without an
examination. Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-3837.




                                                                                                  3
                          Indian Tribal Noncompliance With the Bank Secrecy Act Is
                                     Effectively Identified and Addressed,
                                        but Improvements Can Be Made




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Noncompliance Is Identified and Addressed, but Improvements
          Could Further Assure That Potential Criminal Activities Are
          Detected and Acted Upon .............................................................................Page 3
                    Recommendation 1:..........................................................Page 8

                    Recommendation 2:..........................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Outcome Measure ................................................................Page 15
          Appendix V – Management’s Response to the Draft Report .......................Page 16
         Indian Tribal Noncompliance With the Bank Secrecy Act Is
                    Effectively Identified and Addressed,
                       but Improvements Can Be Made




                      Abbreviations

BSA             Bank Secrecy Act
FinCEN          Financial Crimes Enforcement Network
IRS             Internal Revenue Service
ITG             Indian Tribal Governments
                      Indian Tribal Noncompliance With the Bank Secrecy Act Is
                                 Effectively Identified and Addressed,
                                    but Improvements Can Be Made




                                           Background

Title 31 of the Bank Secrecy Act1 (BSA) requires certain businesses to keep records and provide
reports to the Federal Government about large-dollar and suspicious financial transactions.
These reports are greatly used by domestic and international law enforcement agencies and serve
as a tool for identifying and intercepting terrorist funding and uncovering other criminal activity,
such as money laundering. For example, the Financial Crimes Enforcement Network (FinCEN),
an organization within the Department of the Treasury that has overall authority for enforcement
of the BSA, recently reported that BSA documents were used to trace millions of dollars of
organized crime-controlled sports-betting proceeds through casinos. According to police, the
ring handled several million dollars a month and its operators paid “tributes” to organized crime
figures.
Within the Internal Revenue Service (IRS), the Small Business/Self-Employed Division
Fraud/BSA function has overall responsibility for the BSA Program. In addition, the Tax
Exempt and Government Entities Division Indian Tribal Governments (ITG) office assumed
responsibility for administering some parts of the BSA program for Indian tribes in April 2002
by signing a Memorandum of Understanding with the Fraud/BSA function.
Currently, 225 tribes operate 442 casinos. According to
the National Indian Gaming Association, estimated
                                                               Law enforcement agencies use
revenues from these operations have climbed at
                                                                  reports of large-dollar and
double-digit rates and increased from $17 billion to             suspicious transactions for
almost $25 billion in the last 2 years.2 Tribal gaming is        identifying and intercepting
the fastest growing segment of the gaming industry.               terrorist funding and other
IRS examinations have regularly encountered weak              criminal activity through casinos
                                                                   and banks, including the
internal control practices on the part of nontaxable
                                                               $25 billion Indian tribal gaming
entities, including Indian tribal casinos. These                            industry.
weaknesses can result in tribal casinos being used as
accommodating parties to enable money laundering to
occur3 because tribal entities, as sovereign governments, are not required to file income tax
returns to report income.



1
  Pub. L. No. 91-508, 84 Stat. 1114 to 1124 (1970) (codified as amended in scattered sections of 12 U.S.C.,
15 U.S.C., and 31 U.S.C.). Regulations for the Bank Secrecy Act, and other related statutes, are
31 C.F.R. Sections 103.11-103.77 (2007).
2
  We did not have access to and therefore could not verify the information from the National Indian Gaming
Association.
3
  Money laundering can occur in casinos by exchanging cash for “chips” and converting the chips back into money.
                                                                                                         Page 1
                     Indian Tribal Noncompliance With the Bank Secrecy Act Is
                                Effectively Identified and Addressed,
                                   but Improvements Can Be Made



While this report discusses some of the results of BSA enforcement activities, our audit scope
did not include evaluating activities completed by the 1) Fraud/BSA function to obtain missing
large-dollar or suspicious transaction reports as the result of an examination, 2) IRS Criminal
Investigation Division to pursue criminal sanctions, or 3) FinCEN to pursue the assessment of
penalties. In addition, this audit was conducted while changes were being made to the
BSA program. Any changes that have occurred since we concluded our analyses in April 2008
are not reflected in this report. Consequently, this report might not reflect the most current status
of the IRS BSA program.
This review was performed at the Tax Exempt and Government Entities Division
ITG Headquarters Office and the Small Business/Self-Employed Division Fraud/BSA function
in Washington, D.C.; the ITG field office in Buffalo, New York; and the Enterprise Computing
Center4 in Detroit, Michigan, during the period December 2007 through April 2008. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
finding and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




4
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
                                                                                                      Page 2
                      Indian Tribal Noncompliance With the Bank Secrecy Act Is
                                 Effectively Identified and Addressed,
                                    but Improvements Can Be Made




                                      Results of Review

Noncompliance Is Identified and Addressed, but Improvements Could
Further Assure That Potential Criminal Activities Are Detected and
Acted Upon
The ITG office and the Small Business/Self-Employed Division Fraud/BSA function have been
effective in identifying and addressing Indian tribal entities that are not compliant with the BSA.
The IRS has identified tribes required to comply with the BSA and focused its efforts on those
with the highest risk of noncompliance. When indications of noncompliance are identified, the
IRS takes action to correct these deficiencies by providing increased educational contacts to help
tribes understand BSA requirements, pursuing unfiled information reports during educational
contacts and examinations, and referring cases with willful noncompliance to the IRS Criminal
Investigation Division to develop for prosecution. If the Criminal Investigation Division does
not accept a case for further development, the Fraud/BSA function can forward the case to the
FinCEN for potential penalty assessment when appropriate.5
However, improvements could further assure that tribal noncompliance can be addressed through
enforcement action to deter future criminal activities and identify Indian tribes with the highest
risk of noncompliance.

Noncompliance with the BSA is identified and addressed
The Memorandum of Understanding between the ITG office and Fraud/BSA function includes
procedures for identifying and addressing potential noncompliance with the BSA and is intended
to maximize effectiveness and efficiency by assigning responsibility to each office according to
its area of expertise. The procedures outlined in the Memorandum of Understanding are
consistent with internal guidelines in the Internal Revenue Manual, and we did not identify any
omissions that would have a material effect on the BSA program. More importantly, the
procedures in the Memorandum of Understanding are effective in identifying and addressing
noncompliance with the BSA.
Identifying noncompliance
The ITG office and Fraud/BSA function effectively identify noncompliance by performing an
annual analysis to identify high-risk entities and to select entities for examination based on the

5
 When considering penalty assessment, the FinCEN considers factors such as whether violations resulted from
negligent or willful action, what the violations were and the number that occurred, or the length of time the
violations persisted.
                                                                                                          Page 3
                      Indian Tribal Noncompliance With the Bank Secrecy Act Is
                                 Effectively Identified and Addressed,
                                    but Improvements Can Be Made



risk analysis. Examinations of books and records for a limited number of tribal entities have
identified a high percentage of actual noncompliance.
Through outreach efforts and Internet research for revenue indicators such as the number of
tables or games at casinos, the IRS has identified 286 tribal entities–out of a population of more
than 2,500–that are required to comply with the BSA. The ITG office uses ratios and a point
system–which includes input from the Federal Bureau of Investigation and ITG office field
specialists who are familiar with tribal businesses–to determine which of the 286 tribal entities
have the highest risk of being noncompliant with the BSA. For example, a specialist might have
specific knowledge of internal control weaknesses within the tribal entity’s operations or might
have received a referral from a tribal employee. When completed, the final prioritized list of
tribal entities with potential noncompliance is forwarded to the Fraud/BSA function for
examination consideration.
The Fraud/BSA function generally selected tribal entities for examination based on the results of
the ITG office risk analysis and identified noncompliance from most entities selected.
Examinations of all 286 tribal entities required to comply with the BSA have not been
performed. However, the IRS identified noncompliance in 34 (97 percent) of the
35 examinations closed from September 30, 2005, through November 9, 2007, that we
reviewed.6
•   Reporting violations – Reporting violations were identified in 26 (74 percent) of the
    35 examinations because entities failed to report large-dollar or suspicious transactions to the
    IRS. For example, a reporting violation occurs when an individual exchanges more than
    $10,000 in cash for chips in a casino and the exchange is not reported to the IRS on a
    Currency Transaction Report by Casinos (FinCEN Form 103). Another example of a
    reporting violation is a casino’s failure to file a Suspicious Activity Report by Casinos and
    Card Clubs (FinCEN Form 102) for any suspicious activity or transaction of less than
    $10,000. Information on these Forms is used by law enforcement agencies to help identify
    individuals who might be involved in laundering large amounts of money related to criminal
    activities.
•   Recordkeeping violations – Recordkeeping violations were identified in 20 (57 percent) of
    the 35 examinations because casinos did not document and retain identifying information on
    individuals making certain transactions in a casino (e.g., casinos failed to maintain or
    document the names and addresses of individuals who might have a credit account with the
    casino). These records are used by law enforcement agencies to identify specific individuals
    who might be involved in illegal activities.

6
  The data extract provided to us by the Fraud/BSA function showed that 46 examination cases were closed during
the period. Four cases could not be located, and we did not review seven additional cases because they were
surveyed and not examined. Some examinations identified multiple violations. Therefore, the total number of
violations will be greater than 35.
                                                                                                         Page 4
                   /ndian Tribaf Nuncumpfiance With the Bank Secrecy Act /s
                              Effectivefy /dentifid and Addressed,
                                 but /mpnrvements Can Be Made



   Program violations - Program violations were identified in 19 (54 percent) of the
   35 examinations because casinos did not include certain internal control procedures in their
   BSA programs. For example, casinos' BSA programs did not include or document
   independent testing of internal controls to identify reportable transactions and employee
   training that emphasized identification of large-dollar and suspicious cash transactions.
Addressing noncompliance
The IRS has effectively addressed noncompliance by 1) conducting BSA compliance checks for
entities that are not examined but are at risk of being noncompliant, 2) creating procedures to
obtain missing documentation during examinations, and 3) referring cases with willful
noncompliance to the IRS Criminal Investigation Division to develop for prosecution. If the
Criminal Investigation Di~~ision does not accept a case for further development, the
Fraudf3SA function can fonvard the case to the FinCEN for potential penalty assessment Ivhen
appropriate.
   Between January 2007 and February 2008, the ITG office completed 49 BSA compliance
   checks to review BSA procedures for tribal entities at risk of noncompliance but not
   examined by the Fraud~3SAfunction. Unlike an examination or audit, a BSA compliance
   check is a voluntary process (for the tribe) wherein an ITG office field specialist interviews
   key personnel in the tribe and asks questions about the tribe to determine whether all
   recordkeeping and information-reporting requirements are being met. The ITG office field
   specialist documents an assessment of the compliance risk and any recommendations for
   future activity needed for that tribal entity. Corrective actions were taken andlor
   recommendations were made to correct internal weaknesses in 42 (86 percent) of the
   49 BSA compliance checks. For example, the ITG office specialists assisted entities in
   completing and filing delinquent information reports, advised them regarding improving
   detection of reportable suspicious activities, and made recommendations for employee
   training required under the BSA.
   The Fraudj3SA function has developed procedures requiring examiners to request that tribes
   submit or prepare any unfiied information reports that are identified when they are
   conducting examinations. We observed and reviewed evidence in examination case files that
   examiners follow these procedures when appropriate.
   The FraudiB SA function also addressed willful noncompliance by referring cases to the
   FinCEN for potential penalty assessment when appropriate. We determined that
   3 (9 percent) of the 35 closed examinations identified willful noncompliance, and the cases
   were referred to the FinCEK. I
   *2(eI
                   7   {,,




                                                                                            Page 5
                       Indian Tribal Noncompfiance With the Bank Secrecy Act Is
                                  Effectivefy Identified and Addmssed,
                                     but Imprpvements Can Be Made




lmproved accountlnq for BSA notiflcatlon wlll help assure that enforcement
action can be taken
The ITG office and FraudlBSA function could not account for all Notifications of Possible
IRS Check to Verify hlaintenance of Required Records and Filing Reports ('Letter I052),' which
are used to advise tribal entities of their BSA compliance requirements. The hlemorandum of
Understanding requires the ITG office to fonvard copies of Letters 1052 to the FraudiBSA
function after the Letters have been issued to tribal entities. The FraudiBSA function is
responsible for accounting for the Letters. If tribes are not notified, they might not be aware of
their BSA reporting requirements, which could lead to reduced compliance. Without
documented evidence that tribes were notified of their responsibilities, the IRS cannot take
enforcement actions such as penalty assessments against tribes that have not complied with the
BSA, which could also result in revenue lost to the Federal Government.
We determined that the IRS could account for only 65 (7 1 percent) ofthe 92 Letters I052 we
requested for review. However, ITG office and FraudiBSA function management stated that
they are confident that all Letters 1052 were issued. They further explained that they believed
that the Letters could not be easily located because the responsibilities for issuing and retaining
Letters 1052 were once decentralized.
In August 2005, the ITG office accepted responsibility for issuing Letters 1052 from the
FraudiBSA function. ITG office management stated that prior to approval of the hlemorandum
of understanding, ITG office specialists made personal visits to each casino in their areas and
issued Letters 1052. However, copies of the Letters were not always retained or could not be
located. In addition, FraudiBSA function management stated that their copies of Letters 1052
were filed in examination case files in the field offices where the tribal entities were located.
Filing of Letters 1052 was centralized in a new oftlce within the Fraudi'BSA function in
November 2006, but not all Letters were accounted for.
Mcznczaemer7t Actior7s: During the audit, we presented the results of our tests for the accounting
of Letters 1052 to IRS management, who recognized the need to better account for the Letters.
In a revised hlemorandum of Understanding dated March 6,2008, the ITG office accepted
responsibility for accounting for Letters 1052 after they have been issued to tribal entities. In
addition, an ITG ofice oflicial informed us that the Letters would be kept in a central location so
that they could be easily located. Because the IRS has taken corrective actions, we are making
no recommendations regarding Letters 1052 at this time.



'Letters 1052 must include a copy of the cut-rentregulations (3 1 C.F.R., Part 103).
                                                                                              Page 6
                      / d i a n Tn-bal Noncump/iance With the Bank Secrecy Act /s
                                    Effectively Identified and Addmssed,
                                       but lmpmvements Can Be Made



Improved feedback could focus risk assessments on issues with areater impact
As stated previously, the FraudIBSA function primarily selects entities for examination from a
list provided by the ITG office that is prioritized based on a risk analysis. However, feedback to
ITG office management on the effectiveness ofthe risk analysis is infrequently provided and
only addresses individual cases. Further feedback was limited because the database used to
record the population of tribal entities required to comply with the BSA and data on
BSA examinations contained incomplete and inaccurate information. In addition, there is no
structured feedback process requiring the FraudiBSA function to advise the ITG office as to Why
entities were selected for examination or to provide the actual results of the examinations.
Sharing this information could help the ITG ofiice improve the risk assessment process to focus
on issues with greater impact.
The FraudiBSA function maintains a database (the BSA database) comprised of entities engaged
in businesses dealing with large amounts of cash, such as casinos, currency exchanges, check
cashers, and dealers of gold. This database is used to record the population of tribal entities
required to comply with the BSA. In addition, certain fields within the database include
information such as the reasons for and the results of examinations.
We reviewed an extract of the population of 376 tribal entities from the BSA database and
determined that the data mere incomplete and ina~curate.~
    142 (38 percent) of 376 records in the BSA database did not include information identifying
    each tribal entity (i.e., Employer Identification NumbeF).
    14 (6 percent) of the remaining 234 records with Employer Identification Numbers in the
    BSA database were inaccurate and did not have corres~ondin~  records in the ITG office
    database.                                                                  This part of the
    BSA database should include only Indian tribal information.
Without complete and correct data, the FraudBSA function does not have an accurate population
of entities subject to the BSA requirements. FraudiBSA function management stated that the
BSA database would never fully agree with the ITG database. The BSA database might have
entries for two casinos that use one Employer Identification Number. The ITG database would
probably contain only one entry for the one Employer Identification Number.
In addition, FraudjBSA function management cannot easily identify lvhy entities were selected
for examination. During our review of data for examinations completed during Fiscal




 See Appendix IV.
 A unique nine-digit number used to identify a taxpayer's business account.
                                                                                            Page 7
                      Indian Tribal Noncompliance With the Bank Secrecy Act Is
                                 Effectively Identified and Addressed,
                                    but Improvements Can Be Made



Years 2005 through 2007,10 we could identify why the entity was selected for examination for
only 5 (4 percent) of 120 entities.11 Fraud/BSA function management advised that the reasons
for selecting entities for examination are currently documented only in the examination case
files. In addition, Fraud/BSA function management advised us that they inherited the BSA
database from another office and do not input data in all fields.
Therefore, the Fraud/BSA function cannot systematically inform the ITG office of the results of
examinations and why particularly productive cases were chosen for examination. Without this
feedback, the ITG office might be unable to improve its risk analysis to better focus on issues
with greater impact. For example, it might be useful for the ITG office to know why seven
examinations were surveyed (not examined) so that this information could be considered during
the next risk analysis or compliance checks could be performed if needed.
Management Actions: During the audit, we presented our conclusion that there was no
structured feedback process requiring the Fraud/BSA function to provide the ITG office with the
results of examinations. In a revised Memorandum of Understanding dated March 6, 2008, the
Fraud/BSA function agreed to provide the results of examinations to the ITG office. Because the
IRS has taken corrective actions, we are making no recommendations regarding this issue.
After our audit fieldwork had concluded, Fraud/BSA function management advised us that the
BSA database is being replaced in the first quarter of Fiscal Year 2009, and the new database
will not include “reason for” and “results of examination” database fields. Fraud/BSA function
management also advised us that new database fields cannot be added until a later release of the
new system, possibly in Fiscal Year 2010 or later.

Recommendations
Recommendation 1: The Director, Fraud/BSA, should ensure that the BSA database is
complete and accurate by:
     a) Performing periodic reconciliations of the Fraud/BSA function and the ITG office
        databases.
     b) Completing all applicable fields in the BSA database when data are available.
        Management’s Response: IRS management agreed with the recommendation. By
        December 15, 2008, the BSA Policy and Operations manager will provide confirmation
        to the Director, Fraud/BSA, that a reconciliation of the Fraud/BSA function and the


10
   We requested an extract of data for all examinations opened and closed during Fiscal Years 2005 through 2007.
We could not verify that all examination data for that time period were received because data were not always
accurate or complete. In addition, there is no secondary source of BSA examination inventory information with
which to validate the BSA extract provided.
11
   See Appendix IV.
                                                                                                          Page 8
                 Indian Tribal Noncompliance With the Bank Secrecy Act Is
                            Effectively Identified and Addressed,
                               but Improvements Can Be Made



      ITG office databases has been completed. The reconciliation will include checks to
      ensure that all applicable fields in the BSA database are completed when information is
      available. This reconciliation, in accordance with article 7 of the new Memorandum of
      Understanding, will be required on a semiannual basis, and its results will be shared with
      the ITG office.
Recommendation 2: The Director, Fraud/BSA, should provide feedback to the ITG office
about:
   a) Why Indian tribal entities were selected for examination.
   b) Instances when a case is closed without an examination.
      Management’s Response: IRS management agreed with the recommendation. The
      Fraud/BSA function will provide the ITG office with classification sheets for each case
      selected for examination. The classification sheets reflect why an entity is selected for
      examination. The Fraud/BSA function will provide the sheets to the ITG office upon
      completion of the examination or when the decision is made to close the referral without
      an examination.




                                                                                          Page 9
                       Indian Tribal Noncompliance With the Bank Secrecy Act Is
                                  Effectively Identified and Addressed,
                                     but Improvements Can Be Made



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS effectively identified and
addressed Indian tribal entities that are potentially not compliant with the BSA.1 To accomplish
this objective, we:
I.      Compared the Memorandum of Understanding between the ITG office and the
        Fraud/BSA function to guidance outlined in the Internal Revenue Manual to determine
        whether there were any omissions that would have a material effect on the BSA program
        for tribal entities.
II.     Determined whether the ITG office informed tribal governments of their compliance
        responsibilities and performed risk analyses to identify tribal entities needing additional
        contact, as outlined in the Memorandum of Understanding. We determined whether the
        ITG office:
        A. Performed risk analyses to identify tribal entities for potential noncompliance with
           the BSA and Internal Revenue Code Section 6050(I).2
        B. Referred tribal entities to the Fraud/BSA function for potential examination.
        C. Performed BSA and Internal Revenue Code Section 6050(I) compliance checks on
           tribal entities not selected for examination by the Fraud/BSA function.
III.    Determined whether the Fraud/BSA function fulfilled its responsibilities outlined in the
        Memorandum of Understanding. We determined whether the Fraud/BSA function:
        A. Maintained a Fraud/BSA function database (the BSA database), received from the
           ITG office, of tribal entities required to comply with the BSA and Internal Revenue
           Code Section 6050(I). To accomplish this, we requested and reviewed an extract of
           the population of 376 tribal entities from the BSA database. The IRS performed
           examinations on 120 (32 percent) of the 376 tribal entities during Fiscal Years 2005
           through 2007. Data validity tests were performed to determine whether the data were
           accurate (e.g., dates were not included in numeric fields) and complete (e.g., data


1
  Pub. L. No. 91-508, 84 Stat. 1114 to 1124 (1970) (codified as amended in scattered sections of 12 U.S.C.,
15 U.S.C., and 31 U.S.C.). Regulations for the Bank Secrecy Act, and other related statutes, are
31 C.F.R. Sections 103.11-103.77 (2007).
2
  Internal Revenue Code Section 6050(I) requires anyone involved in a trade or business, except financial
institutions, to report currency received for goods or services in excess of $10,000 on a Report of Cash Payments
Over $10,000 Received in a Trade or Business (Form 8300).
                                                                                                           Page 10
                  Indian Tribal Noncompliance With the Bank Secrecy Act Is
                             Effectively Identified and Addressed,
                                but Improvements Can Be Made



           were not missing from fields). We also compared data fields to examination case
           files and compared records in the BSA database to records in the ITG database.
       B. Maintained copies of Notifications of Possible IRS Check to Verify Maintenance of
          Required Records and Filing Reports (Letter 1052). To accomplish this, we reviewed
          the 65 Letters 1052 received out of the 92 Letters 1052 we had requested. The
          92 Letters 1052 represent all Letters associated with examinations or compliance
          checks conducted on tribal entities during the period September 30, 2005, through
          November 9, 2007.
       C. Performed BSA and Internal Revenue Code Section 6050(I) examinations of tribal
          entities identified by the ITG office as being at risk of noncompliance. To
          accomplish this, we reviewed 35 of the 46 examinations closed during the period
          September 30, 2005, through November 9, 2007. The data extract provided to us by
          the Fraud/BSA function showed 46 records of examination cases were closed during
          the period. Four cases could not be located, and we did not review seven additional
          cases because they had been surveyed and not examined.
       D. Forwarded the results of BSA and Internal Revenue Code Section 6050(I)
          examinations to the ITG office.
       E. Referred tribal entities that might not have complied with the BSA and Internal
          Revenue Code Section 6050(I) to the FinCEN for potential penalty assessments.
IV.    Determined whether actions taken by the ITG office and Fraud/BSA function were
       effective in identifying and addressing tribal entities with the highest risk of
       noncompliance with the BSA. We determined whether:
       A. Fraud/BSA function examination results for tribal entities showed that the ITG office
          risk analysis criteria were good indicators of noncompliance.
       B. The ITG office used feedback from the Fraud/BSA function to refine its criteria for
          identifying potentially noncompliant tribal entities.
       C. The Fraud/BSA function examined the highest priority entities based on the list
          provided by the ITG office.
       D. The Fraud/BSA function created taxpayer burden by reviewing lower priority cases
          that did not identify noncompliance.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the

                                                                                        Page 11
                  Indian Tribal Noncompliance With the Bank Secrecy Act Is
                             Effectively Identified and Addressed,
                                but Improvements Can Be Made



following internal controls were relevant to our objective: the ITG office and Fraud/BSA
function policies, procedures, and practices for identifying and addressing potential
noncompliance with the BSA. We evaluated these controls by interviewing management,
reviewing applicable information, and reviewing BSA examination cases referred to the
Fraud/BSA function by the ITG office.




                                                                                       Page 12
                  Indian Tribal Noncompliance With the Bank Secrecy Act Is
                             Effectively Identified and Addressed,
                                but Improvements Can Be Made



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Troy D. Paterson, Director
Gerald T. Hawkins, Audit Manager
Julia Moore, Lead Auditor
Andrew J. Burns, Senior Auditor
Marjorie A. Stephenson, Senior Auditor
Yolanda D. Brown, Auditor




                                                                                    Page 13
                 Indian Tribal Noncompliance With the Bank Secrecy Act Is
                            Effectively Identified and Addressed,
                               but Improvements Can Be Made



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief, Criminal Investigation SE:CI
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Fraud/Bank Secrecy Act, Small Business/Self-Employed Division SE:S:F/BSA
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Director, Indian Tribal Governments, Tax Exempt and Government Entities Division
SE:T:GE:ITG
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Criminal Investigation Division SE:CI
       Director, Communications and Liaison, Tax Exempt and Government Entities Division
       SE:T:CL
       Director, Communications and Liaison, Small Business/Self-Employed Division
       SE:S:CLD:PSP:GTL




                                                                                   Page 14
                       Indian Tribal Nuncumpfiance With the Bank Secrecy Act Is
                                  Effec tivefy Identified and Addressed,
                                     but lmpnrvements Can Be Made



                                                                                                Appendix IV

                                       Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
    Reliability of Information - Actual; 270 taxpayer accounts affected (see page 3).

Methodologv Used to Measure the Reporfed Benefit:
We compared an extract of the population of tribal entities on the FraudiBSA function database
(the BSA database) to tribal entities on the ITG office database that are required to comply with
the BSA.' We identified the following inaccurate and incomplete information:
    142 (38 percent) of 376 records in the BSA database did not include information identifying
    each tribal entity (i.e., Employer Identification Number?).
    I4 (6 percent) of the remaining 234 records with Employer Identification Numbers in the
    BSA data                                                                  e ITG office
    database.
    115 (96 percent) of 120 records for examinations completed during Fiscal Years 2005
    through 2007 did not include why the entity was selected for e~amination.~
Without complete and correct data, the FraudBSA function does not have an accurate population
of entities falling under the BSA requirements. In addition, knowing why entities were selected
for examination by the Small Business/Self-Employed Dit-ision Fraudi'BSA function might help
the ITG office improve its risk analysis process.




 pub. L.No. 91-508, 84 Stat. 11 14 to 1 124 (1970) (codified as amended in scattered sections of 12 U.S.C.,
15 U.S.C., and 3 1 U.S.C.). Regulations for the Bank Secrecy Act, and other related statutes, are
3 1 C.F.R. Sections 103.1 1-103.77 (2007).




                                                                                                              Page 15
     Indian Tribal Noncompliance With the Bank Secrecy Act Is
                Effectively Identified and Addressed,
                   but Improvements Can Be Made



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 16
Indian Tribal Noncompliance With the Bank Secrecy Act Is
           Effectively Identified and Addressed,
              but Improvements Can Be Made




                                                     Page 17
Indian Tribal Noncompliance With the Bank Secrecy Act Is
           Effectively Identified and Addressed,
              but Improvements Can Be Made




                                                     Page 18
Indian Tribal Noncompliance With the Bank Secrecy Act Is
           Effectively Identified and Addressed,
              but Improvements Can Be Made




                                                     Page 19
